No. 20-171

In the Supreme Court of the United States
ISAAC L. HOBBS, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

MEMORANDUM FOR THE UNITED STATES

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 20-171
ISAAC L. HOBBS, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

MEMORANDUM FOR THE UNITED STATES

Petitioner contends (Pet. 3, 7-12) that the Court’s review is warranted to resolve a circuit conflict over
whether a defendant who pleaded guilty to possessing a
firearm as a felon, in violation of 18 U.S.C. 922(g)(1), establishes structural error by showing that he was not
advised during his plea colloquy that one element of
that offense is knowledge of his felon status. See Rehaif
v. United States, 139 S. Ct. 2191 (2019). As explained in
the government’s petition for a writ of certiorari in
United States v. Gary, No. 20-444 (filed Oct. 5, 2020),
petitioner is correct that the circuits are divided on that
recurring question and that it warrants the Court’s review this Term.
The petition for a writ of certiorari here, however, is
not a suitable vehicle for resolving the circuit conflict.
As petitioner acknowledges (Pet. 6), he did not argue in
the court of appeals that the failure to advise him of Rehaif ’s knowledge-of-status element was a “structural”
(1)

2
error, let alone argue (as his petition appears to assume) that structural errors necessarily affect one’s
“substantial rights” for purposes of plain-error review.
See Pet. at 15-16, Gary, supra (No. 20-444) (explaining
that this Court has repeatedly reserved decision on
whether “structural” errors automatically affect “substantial rights”). The court of appeals therefore had no
occasion to address those questions or analyze precedents of this Court pertinent to resolving them. Moreover, because the court of appeals determined that petitioner failed to demonstrate an effect on his “substantial rights,” Fed. R. Crim. P. 52(b), it did not reach or
resolve the separate plain-error requirement—which
this Court has found dispositive in two previous cases
involving claims of structural error—that the error
have seriously affected the fairness, integrity, or public
reputation of judicial proceedings. See United States v.
Cotton, 535 U.S. 625, 633-634 (2002); Johnson v. United
States, 520 U.S. 461, 470 (1997).
By contrast, the government’s petition for a writ of
certiorari in Gary arises from a court of appeals decision expressly holding that a district court’s failure to
advise a pleading defendant of Rehaif ’s knowledge element “is structural” error that entitles a defendant to
relief because it automatically satisfies the third and
fourth requirements of this Court’s plain-error test.
United States v. Gary, 954 F.3d 194, 198, 202-208 (4th
Cir. 2020). Five judges of that court criticized that holding in a published opinion respecting the denial of rehearing en banc, describing it as “so incorrect” as to
warrant this Court’s “prompt[]” review. United States
v. Gary, 963 F.3d 420, 420 (4th Cir. 2020) (Wilkinson, J.,
joined by Niemeyer, Agee, Quattlebaum, and Rushing,
JJ., concurring in the denial of rehearing en banc). And

3
three other courts of appeals have acknowledged but rejected the Fourth Circuit’s approach in precedential
opinions, including in opinions that similarly address
both the third and the fourth requirements of the plainerror test. See Pet. at 21-22, Gary, supra (No. 20-444);
United States v. Trujillo, 960 F.3d 1196, 1205-1207
(10th Cir. 2020); United States v. Lavalais, 960 F.3d
180, 188 (5th Cir. 2020), petition for cert. pending, No.
20-5489 (filed Aug. 20, 2020). Granting review in Gary
would put squarely before the Court a decision that addresses both plain-error requirements about which the
circuits are divided. Granting review in this case would
not.
Accordingly, the petition for a writ of certiorari
should be held pending the Court’s consideration of the
government’s petition in Gary, supra (No. 20-444), and
then disposed of as appropriate.*
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General

OCTOBER 2020

The government waives any further response to the petition for
a writ of certiorari unless this Court requests otherwise.
*

